  DEPARTMENT OF   HOMELAND SECURITY
              FOR OFFICIAL USE ON Y




       Office of Inspector General


   The Transportation Security Administration’s 

            National Deployment Force 





OIG-08-49                           April 2008
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                      April 30, 2008


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This review addresses when, where, and why the Transportation Security Administration’s National
Deployment Force has been deployed and the expenses incurred related to the maintenance and
deployment of the program. In addition, we evaluated TSA oversight activities, the adequacy of
standard operating procedures, and whether the overall intent of the National Deployment Force
program is being met. The review is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, quantitative analysis, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations


Executive Summary ...............................................................................................................................1 


Background ............................................................................................................................................2 


Results of Review ..................................................................................................................................4 


     Internal Controls Over National Deployment Force Operations .....................................................4 

     Recommendations............................................................................................................................7 


     Reliance on NDF to Offset Local Hiring ........................................................................................7 

     Recommendations............................................................................................................................9 


     Standard Operating Procedures .......................................................................................................9 

     Recommendations..........................................................................................................................10 


Management Comments and OIG Analysis ........................................................................................11 


Appendices
     Appendix A:             Purpose, Scope, and Methodology .......................................................................14 

     Appendix B:             Management Comments to the Draft Report .......................................................15 

     Appendix C:             Congressional Letter.............................................................................................22 

     Appendix D:             FY 2007 NDO Deployment Summary of Personnel by Pay Period and NDF 

                             Deployment Costs ................................................................................................24 

     Appendix E:             Estimated FY 2007 Deployment Costs for Local Hiring by Pay Period..............25 

     Appendix F:             NDO – NetHub Message Archive: 400.3 – NDF Support for Local Hiring........26 

     Appendix G:             Major Contributors to this Report ........................................................................27 

     Appendix H:             Report Distribution...............................................................................................28 


Abbreviations
ATSA                   Aviation and Transportation Security Act
DHS                    Department of Homeland Security
FSD                    Federal Security Director
MSF                    Mobile Screening Force
NSF                    National Screening Force
NDF                    National Deployment Force
NDO                    National Deployment Office
OHC                    Office of Human Capital
OIG                    Office of Inspector General
OSO                    Office of Security Operations
TEEP                   Training Exercise Execution Plan
TSA                    Transportation Security Administration
TSO                    Transportation Security Officer
OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Transportation Security Administration’s National Deployment Force
                deploys Transportation Security Officers to support airport screening
                operations during emergencies, seasonal demands, or other circumstances
                requiring more staffing resources than are regularly available. Our review of
                National Deployment Force Program costs responds to concerns raised by
                Congressman John Mica regarding the Transportation Security
                Administration’s possible reliance on this program in ways not originally
                intended. In his letter of June 30, 2006, Congressman Mica requested
                information on when, where, and why the National Deployment Force had
                been deployed since the inception of the program, along with a breakdown of
                deployment expenses to include travel, per diem, hotel, and overtime costs for
                Fiscal Years 2004, 2005, and 2006.

                The Transportation Security Administration implemented their deployment
                program without developing a process to determine the criteria and priority
                for deployment decisions, or ensuring the appropriateness of resource
                allocations. From the establishment of a deployment program in November
                2003 until January 2007, they did not have financial systems to track and
                document program-related costs; adequate documentation to support
                deployment decisionmaking; or internal controls and standard operating
                procedures over key deployment functions. In addition, they were overly
                reliant on the deployment force to fill chronic staffing shortages at specific
                airports in lieu of more cost effective strategies and solutions to handle
                screening demands.

                We recommended that the Transportation Security Administration establish
                systems to collect, track, and report deployment costs; develop
                decisionmaking procedures for deployment requests and document results;
                and develop and disseminate standard operating procedures for key program
                functions to increase program efficiency and effectiveness. TSA officials
                generally agreed with our findings, and have initiated corrective actions to
                address recommendations in this report.




               The Transportation Security Administration’s National Deployment Force 


                                               Page 1

Background
                           Congress enacted the Aviation and Transportation Security Act 1 (ATSA)
                           following the attacks of September 2001. The Act created the Transportation
                           Security Administration (TSA) within the Department of Transportation to
                           protect the Nation’s transportation systems. On March 1, 2003, TSA was
                           integrated into the Department of Homeland Security. As part of its mission,
                           TSA has responsibility for passenger and checked baggage screening
                           operations at more than 400 commercial airports. Federal Security Directors
                           (FSD) and their staff manage passenger and baggage screening operations,
                           including management of the screener workforce, at one or more airports
                           under their jurisdiction.

                           ATSA tasked TSA with building a federal agency and meeting a 1-year
                           mandate to federalize aviation security for passenger screening by November
                           19, 2002. To meet this requirement, TSA recruited, hired, trained, and
                           deployed approximately 55,000 federal full-time Transportation Security
                           Officers (TSOs) to more than 400 airports by the mandated timeframe. In
                           August 2002, following congressional concern over the size of the federalized
                           TSO workforce, Congress imposed a cap prohibiting TSA from exceeding
                           45,000 TSO positions.

                           In November 2002, TSA’s Office of Aviations Operations established a
                           regionally based Mobile Screening Force (MSF) to support the initial
                           deployment of federal screeners to each commercial airport and respond to
                           other short-term operational needs. The MSF was composed of screening
                           staff who were detailed from their permanent duty station and assigned
                           temporarily to airports as part of the transition from private to federalized
                           screening operations.

                           To determine the initial airport TSO staffing requirements, TSA used the same
                           number of screeners that were in place before the airports were federalized.
                           However, within the first year of operation, TSA identified imbalances in
                           TSO resources, airport overstaffing, and hiring and retention issues that
                           resulted in continued use of MSF staff by airports. TSA also needed the MSF
                           at airports to support planned growth, assist while equipment is upgraded, and
                           for other special operations such as enhanced airport employee screening.

                           In October 2003, as required by TSA Directive AVO 5200-1, the MSF was
                           transitioned into a centrally managed National Screening Force (NSF) as a
                           permanent mobile screening entity. The NSF was responsible for providing
                           support to all airports during emergencies, to cope with seasonal demands, or
                           under other special circumstances that require labor assets not regularly

1
    Public Law No 107-71, 115 Stat.597 (2001).

                         The Transportation Security Administration’s National Deployment Force 


                                                         Page 2

 available to the FSDs. Examples of these circumstances include severe
 weather conditions, heightened security requirements, natural disasters such as
 Hurricane Katrina, and increased passenger activity due to special occasions.
 The creation of the NSF was in response to TSA’s legal requirement to screen
 100% of baggage and passengers at all commercial airports at a time when
 TSO resources were below required levels.

 The NSF functioned as an independent operation where staff reported directly
 to the NSF Operations Center at TSA headquarters. When not deployed,
 members of the NSF were assigned to duty at their airport of record. NSF
 deployment costs were charged to the NSF operating budget. TSO salary and
 benefits costs were charged to a central account, with pay computations based
 on the location of their home airport.

 TSA officials described its centralized management process under the NSF as
 inefficient and costly because airports were not fiscally responsible. In
 November 2006, the NSF Operations Center transitioned into the National
 Deployment Office (NDO), located within the Office of Security Operations
 (OSO). TSOs serving in the program were renamed the National Deployment
 Force (NDF). TSA officials said that this transition focused primarily on the
 decentralization of TSO administrative responsibilities. The aim was to move
 the non-operational NDF functions back to the employees’ airport of record,
 with the intention of redistributing responsibility and costs.

 In April 2007, TSA transferred TSO administrative support functions such as
 processing payroll, training certifications, and performance appraisals for
 NDF personnel to the airport of record or deployment. The NDO retained
 responsibility for overall program management, processing and approval of
 requests for deployment, and support functions related to travel and lodging.

 As of December 2007, there were 480 TSOs assigned to the National
 Deployment Force. Since its inception in 2003, the program has had an
 annual operating budget of $35 million. For FY 2007, $32 million was
 earmarked for NDF deployment-related costs for travel, lodging, and per
 diem; and $3 million was budgeted for contractors who provide administrative
 support and travel-related services. The NDF budget is not inclusive of
 compensation and benefits costs for headquarters staff, or for the NDF staff
 assigned to the program. NDF salary and benefits costs are supported by the
 TSO’s airport of record.




The Transportation Security Administration’s National Deployment Force 


                                Page 3

Results of Review
     Internal Controls Over National Deployment Force Operations
                According to OMB Circular A-123, “Management Responsibility for Internal
                Control,” management is responsible for developing and maintaining effective
                internal controls to ensure that programs operate and resources are used
                consistent with agency missions. This should be accomplished with minimal
                potential for waste, fraud, and mismanagement. In addition, internal controls
                must be established that reasonably ensure that funds and other assets are
                safeguarded against waste, loss, unauthorized use, or misappropriation.

                Since November 2003, TSA has maintained a deployment force program to
                support the temporary deployment of federal screeners to commercial airports
                that require screening resources not routinely available. However, neither
                procedures to ensure the integrity and accountability over deployment
                resources, nor a decisionmaking process that defines the criteria and priority
                for handling requests for screener assistance had been established. Program
                managers responsible for overall NDF operations said that during the
                inception of the deployment program, there was no way to track employees
                who had been deployed, and screeners could slip through the cracks and even
                overstay their deployment. In the absence of internal controls to track and
                document the use of NDF resources, we were unable to determine deployment
                cost and the rationale for deployment decisions for Fiscal Years 2004 through
                2006.

                Deployment Costs

                We requested financial data on all deployments from November 2003 to
                March 2007, including a breakdown of salaries, per diem, transportation, and
                other travel-related expenses. Also, due to concerns regarding events
                surrounding specific deployments to Washington-Dulles International Airport,
                Los Angeles International Airport, and Joe Foss Field in Sioux Falls, South
                Dakota, we requested additional information for these deployments.

                After several requests for deployment cost data, NDO program managers said
                that they could not provide such information for each airport that received
                NDF support in FYs 2004, 2005, and 2006. In addition, they were unable to
                provide deployment cost data for Washington-Dulles International Airport,
                Los Angeles International Airport, and Joe Foss Field in Sioux Falls. NDO
                officials said that deployments to Los Angeles International Airport for
                approximately 90 to 120 days during 2006 were required due to local hiring
                shortfalls. Also, Dulles International Airport experienced local hiring
                shortfalls throughout FYs 2005 and 2006, which resulted in continuous NDF
                support. NDF deployments to Sioux Falls, SD, were in response to a 12-week

               The Transportation Security Administration’s National Deployment Force 


                                               Page 4

 seasonal surge in passengers from October to December 2005 and extended
 until February 2006 when a private contractor assumed responsibility for
 screening operations.

 TSA officials said that airport deployment costs were not tracked during FYs
 2004 through 2006. Because the objective of the NSF was to provide
 assistance to the FSDs who did not have sufficient TSO resources, project
 managers were provided funds to support airport screening operations as
 needed. They also said that the budget process consisted of taking the $33
 million allocated annually for per diem, rental cars, airfare, and hotels, along
 with the $2 million allocated for contractor support costs, and dividing it to
 spend among four quarters. OSO Budget and Finance officials said that they
 reviewed the NDO status of funds simply to ensure that they were not
 deficient, but were not responsible for producing financial reports of NDF
 deployment costs.

 We obtained documentation that showed FY 2004 to FY 2006 NDF program
 costs for TSO airfare, per diem, and lodging that totaled $24.7 million, $26.3
 million, and $27.9 million, respectively. We also received information that
 showed the average number of TSOs deployed per week by calendar year for
 2005 and 2006, which totaled 412 and 408, respectively. Due to the limited
 information provided, we are unable to determine actual deployment costs,
 inclusive of TSO salary and benefits. TSA officials said that salary and
 benefit costs, while part of the cost of deployment, are not additive costs to an
 NDO deployment because TSO salary and benefits are paid regardless of
 location.

 Information obtained from the Office of Human Capital showed that the
 average annual salary and benefit costs for a locally hired TSO is $56,900, or
 $219 per day. NDO program managers said that the daily cost for one
 deployed TSO including salary, benefits, travel, lodging, per diem, over-time,
 and related expenses totals $511 per day. Based on information provided by
 NDO officials for calendar year 2005 and 2006 weekly deployments, and the
 average daily expense to deploy one TSO, we estimate total deployment costs
 of $76.7 million for 2005, and $76 million for 2006. Costs for all NDO
 deployments in 2007 totaled $65.8 million, which included $33.5 million for
 operational expenses and $32.3 million for pay, compensation, and benefit
 expenses (see Appendix D).

 NDF officials said that their financial analyst was responsible for tracking
 deployment costs. A financial analyst was temporarily detailed to NDO from
 mid-November 2006 to mid-February 2007. The financial analyst said that
 responsibilities included conducting comprehensive examinations of all
 deployment expenditures. This examination included a review of operational
 costs and nonpayroll data, ensuring the accuracy of contracts, and a review of
 financial records to measure burn rates and other data. However, tracking
The Transportation Security Administration’s National Deployment Force 


                                Page 5

 deployment costs was not an assigned duty, and NDF continued to manage
 their own budget. NDO officials said that the NDO financial analyst position
 was permanently filled in December 2007, and includes responsibility for
 monitoring and tracking deployment costs.

 Deployment Decisions

 We were unable to determine the rationale for TSO deployment decisions
 made during FYs 2004, 2005, and 2006. NDO officials said from 2003 to
 2007 there was no formal process to manage deployment decisions. They
 referred to this time period as “the wild west” since there were no operational
 directives for the NDF, and deployment decisions were largely based on
 individual relationships between NDF staff and the requesting FSD. NDF
 staff said that requests for screener assistance were rarely denied since it was
 assumed that FSDs would not exaggerate their need for screener assistance,
 and NSF staff did not possess the experience to make denial decisions. In
 addition, there were no methods to validate the need for additional assistance,
 and no means to determine what airport management was doing to remedy
 staffing issues. NDO officials also said that FSDs were able to use the NDF
 program as a cost-saving tool since the additional temporary staff did not
 affect the receiving airport’s operating budget.

 In the absence of a deployment decisionmaking process during this period,
 TSOs at airports we visited also expressed opinions about a process that
 resulted in favored TSOs being given assignments to the more desirable
 deployment locations. TSOs believed that favoritism was a result of
 friendships between NDF staff and TSOs. Many TSOs said this favoritism
 had a negative effect on their morale.

 NDO officials confirmed this perception of favoritism in deployment
 decisions and believed that it occurred because the assignment process was
 not transparent. Also, there was a comfort factor where FSDs requested TSOs
 who had previously been deployed to their location and were already familiar
 with the operations.

 Beginning in FY 2007, information regarding the rationale for each
 deployment was documented on a form developed for FSDs requesting NDF
 assistance. This information included total deployments by pay period and the
 reason for deployment. For FY 2007, there were a total of 9,197
 deployments, as shown in Appendix D.

 To address deficiencies in the NDF deployment decisionmaking process, TSA
 created the Training Exercise Execution Plan (TEEP) committee. The TEEP
 was created in January 2007, and is responsible for assessing NDF
 deployments. Previously, deployment requests were approved with limited
 consultation with other offices. In January 2007, the deployment assessment
The Transportation Security Administration’s National Deployment Force 


                                Page 6

           and approval process was expanded to include participation from the Office of
           Human Capital (OHC), Workforce Utilization Office, and Field Operations
           Offices. According to NDO officials, guidance from these offices has
           enhanced the TEEP assessment process by including current airport
           performance, overtime utilization, new hire status, and TSOs who are already
           being recruited or trained.

           NDO program managers said that for FY 2007, the number of TSOs requested
           for deployment continued to be inflated. To support the deployment analysis
           and approval process, NDO staff developed a database with information on
           each airport’s deployment requests, the deployment duration, the number of
           TSOs required, and all projected costs. Following an analysis of all available
           information, TEEP determines whether the deployment request is supportable
           or whether other strategies or solutions would be more appropriate.


     Recommendations
           We recommend that the Assistant Secretary, TSA:

           Recommendation 1: Implement a financial management system capable of
           tracking and reporting on all costs related to National Deployment Force
           operations. At a minimum, the financial management system should include
           the number of TSOs requested, salary and benefit costs, travel and per diem
           costs for each TSO, and the deployment duration.

           Recommendation 2: Establish procedures to ensure that (1) all guidance
           provided by Office of Human Capital, the Workforce Utilization Office,
           Office of Security Operations, and other offices is validated and incorporated
           into the deployment analysis process; (2) a cost-benefit analysis is conducted
           and documented for all requests for deployment; and (3) the final disposition
           of the request is documented and communicated to appropriate staff.

           Recommendation 3: To improve transparency in the process for making
           deployment assignments, develop and communicate the selection criteria to
           TSOs and other staff as appropriate.


Reliance on NDF to Offset Local Hiring
           According to TSA Directive AVO 5200-1, the NSF provides support to all
           airports during emergencies, seasonal demands, or under other special
           circumstances that require more TSOs than would be regularly available to the
           FSDs. However, TSA officials confirmed that airports with chronic problems


          The Transportation Security Administration’s National Deployment Force 


                                          Page 7

 hiring or retaining TSOs became overly reliant on the NDF to make up for
 their staffing shortfalls.

 TSA officials said that for FY 2007, the primary reason NDF TSOs were
 deployed to airports was staffing shortfalls caused by local hiring problems.
 For FY 2007 deployments, NDO documented TSO deployments and related
 deployment costs by pay period. Based on information obtained from NDO,
 we determined that for FY 2007, local hiring difficulties accounted for 4,401
 of 9,197, or about 48% of deployments, at a cost of $31.5 million (see
 Appendices D and E).

 In a March 20, 2007, memorandum to FSDs, the Assistant Administrator,
 Office of Security Operations, expressed concern regarding the continued high
 percentage of all NDF deployments being made in response to local hiring
 shortfalls. He said that this was not what the program was designed to do.
 According to the memorandum, FSDs were instructed to seek ways to reduce
 requests made due to local hiring problems, and that future approvals to
 deploy NDF resources would occur only for unique situations beyond the
 ability of the airport to support.

 Program managers estimated that for FY 2007, approximately 30 airports
 continued to experience local hiring problems. We reviewed FY 2005
 through FY 2007 deployment data for six of these airports, and learned that:

     •	 All six airports received NDF TSOs continuously for periods of up to
        1 year.
     •	 Two of the airports had received screener support continuously since
        November 2002.
     •	 The largest airport in this group, with an authorization of more than
        600 TSOs, received NDF support for 21 consecutive months from FY
        2005 to FY 2006. This airport averaged 99 NDF TSOs per week, or
        16% of its authorized TSO workforce.

 From the establishment of a deployment force until July 2007, FSDs had an
 incentive to prolong deployments at their airport because the receiving airport
 incurred no costs from its own budget for the NDF deployment. The costs
 associated with the deployment—overtime, per diem, and travel—were
 absorbed within the NSF operations budget. The costs for TSO salaries and
 benefits were centrally budgeted.

 According to the June 28, 2007, NDO NetHub Message Archive: 400.3, titled
 “NDF Support for Local Hiring, as of July 22, 2007,” airports that are
 authorized NDF deployments due to local hiring shortfalls are directly
 charged the TSO salary and related benefits costs for the period of deployment
 (see Appendix F). However, the NDO budget continues to fund all other

The Transportation Security Administration’s National Deployment Force 


                                Page 8

          deployment costs for TSOs deployed due to local hiring shortfalls, including
          per diem, lodging, and travel, and all deployment costs for reasons other than
          local hiring shortfalls.

          We recognize that TSA must support airports that do not have sufficient
          personnel to satisfy passenger and baggage screening requirements. However,
          long-term NDF deployments to airports with local hiring problems created a
          sense of permanency in NDF support. Additionally, long-term NDF
          deployment creates the appearance that the program is a costly band-aid in
          lieu of applying more cost effective solutions to local hiring problems.

          TSA officials said that the TEEP Committee is addressing this issue by taking
          into account an airport’s authorized TSO level, and closely tracking local
          hiring initiatives at airports experiencing chronic hiring problems. In October
          2006, 292 TSOs were deployed in support of local hiring shortfalls. By
          September 2007, 76 TSOs were deployed due to local hiring shortfalls.


     Recommendations
          We recommend that the Assistant Secretary, TSA:

          Recommendation 4: Develop, implement, and document a decisionmaking
          process for local hiring deployment requests that includes, at a minimum, an
          assessment of actions taken by the FSD to resolve staffing shortfalls,
          estimated NDF costs for the deployment, and an assessment of alternative
          solutions.


Standard Operating Procedures

          From FY 2003 to FY 2006, standard operating procedures for key aspects of
          the NDF program had either not been established or effectively communicated
          to staff. For areas where procedures were developed, management
          communicated the information verbally or through management directives
          that provided no assurance that all staff received the information. For
          example, scheduling officers who were unaware of TSO leave policies
          approved leave for TSOs serving in their first 60 days of deployment, even
          though the policy does not authorize such leave. As a result, there were
          inconsistencies in carrying out duties and responsibilities related to NDF
          program operations.

          In 2007, TSA officials initiated efforts to develop standard operating
          procedures for key functions of the program and improve communications
          between headquarters and field staff personnel. An NDO website was

         The Transportation Security Administration’s National Deployment Force 


                                         Page 9

     established in March 2007 to transmit information regarding the program
     through bulletins, guidelines, and standard operating procedures. A National
     Deployment Office Handbook was developed in July 2007 to provide
     information on program operations. In addition, an interactive website was
     created to post questions, concerns, and documents to support and facilitate
     the transition of TSO administrative duties to the airports.

     While the handbook and NDO website represent improvements, field staff
     said that the availability of these additional resources or how to gain access
     had not been communicated to them.

     Procedures for the following key NDO operations still had either not been
     established or were not included in the NDO Handbook:

         •	 The deployment assignment process;
         •	 The Performance Accountability and Standards System process to
            fully document TSO performance during multiple deployments in the
            performance period;
         •	 TSO training procedures to ensure that requirements for recertification
            can be achieved while on deployment; and
         •	 Availability and selection of TSOs to participate in the Drug-Free
            Workplace Program to ensure that TSOs have an equal chance of
            selection for periodic random drug and alcohol testing.

     To provide consistency in the performance of NDO operations, NDO
     management officials need to ensure that the NDO Handbook represents a
     comprehensive source for current policies, procedures, and guidelines for
     NDO operations. In addition, a process needs to be developed to ensure that
     all NDO and airport staff are informed of available resources to assist in
     effectively accomplishing their duties and responsibilities.


Recommendations
     We recommend that the Assistant Secretary, TSA:

     Recommendation 5: Provide all FSDs with standard operating procedures,
     NDO Handbooks, and all available Internet resources.

     Recommendation 6: Establish a process to ensure that the NDO Handbook
     includes current policies, procedures, and guidelines for all NDO operations.




    The Transportation Security Administration’s National Deployment Force 


                                   Page 10

Management Comments and OIG Analysis
     We evaluated TSA’s written comments to our report. Below is a summary of
     TSA’s written response to the report’s recommendations and our analysis of
     the response. A copy of TSA’s response, in its entirety, is included as
     Appendix B.

     In its written comments, TSA said that OIG’s draft report, for the most part,
     accurately assesses many of the NDF Program challenges experienced prior to
     January 2007. However, management officials expressed concerns that the
     report did not adequately reflect significant improvements made to the NDF
     program since January 2007.

     To address issues identified by Congressman Mica, our review focused on
     NDF activities from its inception in October 2003 through Fiscal Year 2006.
     The report does recognize efforts taken by management officials during 2007
     to address deficiencies in the deployment process. However, we did not
     assess the effectiveness of these actions since some programmatic changes
     have not yet been finalized and incorporated into NDO Operations Directives,
     as confirmed in TSA’s written response.

     Recommendation 1: Implement a financial management system capable of
     tracking and reporting on all costs related to National Deployment Force
     operations. At a minimum, the financial management system should include
     the number of TSOs requested, salary and benefit costs, travel and per diem
     costs for each TSO, and the deployment duration.

     TSA Response: TSA concurred with our recommendation. In its response,
     TSA noted that the NDO has developed, and is now using, a financial
     management tracking and reporting system that captures all costs, including
     salary and benefits, travel, per diem, and deployment duration, associated with
     TSOs requested for each deployment.

     OIG Analysis: Based on our review of documentation generated from TSA’s
     financial management tracking and reporting system, we consider the
     recommendation resolved and closed.

     Recommendation 2: Establish procedures to ensure that (1) all guidance
     provided by Office of Human Capital, the Workforce Utilization Office,
     Office of Security Operations, and other offices is validated and incorporated
     into the deployment analysis process; (2) a cost-benefit analysis is conducted
     and documented for all requests for deployment; and (3) the final disposition
     of the request is documented and communicated to appropriate staff.




    The Transportation Security Administration’s National Deployment Force 


                                   Page 11

 TSA Response: TSA concurred with our recommendation. In its response,
 TSA describes a deployment analysis process initiated during 2007 that: (1)
 engages stakeholders; (2) incorporates cost considerations and relevant
 guidance from other offices; and, (3) documents and communicates final
 deployment decisions. The deployment analysis process requires that all NDF
 requests be evaluated by the Office of Human Capital and Office of Security
 Operation’s Workforce Utilization team. Procedures have been
 communicated to FSDs, and are documented in TSA NDO’s draft Operations
 Directive, expected to become final in late April 2008.

 OIG Analysis: We consider TSA’s comments responsive to the
 recommendation, which is resolved and open. This recommendation will
 remain resolved and open until TSA provides documentation that these
 procedures have been incorporated into the final NDO Operations Directive.

 Recommendation 3: To improve transparency in the process for making
 deployment assignments, develop and communicate the selection criteria to
 TSOs and other staff as appropriate.

 TSA Response: TSA agreed with our recommendation, and said it has
 communicated assignment selection criteria to NDF TSOs, FSDs, and other
 staff. The NDF Handbook published in July 2007 describes the criteria used
 to determine assignments of NDF Officers to deployments. Also, they plan to
 (1) include the assignment selection criteria in the NDO Operations Directive,
 expected to become final in April 2008, and (2) post the selection criteria to
 the NDF SharePoint site, and announce the posting to NDF TSOs.

 OIG Analysis: We consider TSA’s comments responsive to the
 recommendation, which is resolved and open. This recommendation will
 remain resolved and open until TSA provides documentation that selection
 criteria has been included in the NDO Operations Directive and posted to the
 NDF SharePoint site.

 Recommendation 4: Develop, implement, and document a decision-making
 process for local hiring deployment requests that includes, at a minimum, an
 assessment of actions taken by the FSD to resolve staffing shortfalls,
 estimated NDF costs for the deployment, and an assessment of alternative
 solutions.

 TSA Response: TSA concurred with our recommendation, and has
 implemented a comprehensive deployment analysis and decision-making
 process that engages stakeholders, considers actions already taken by the FSD,
 estimates deployment costs, and assesses alternative solutions. TSA
 distributed the deployment analysis and decision-making procedure to FSDs
 via the NetHub broadcast system in January 2007, and will also include the


The Transportation Security Administration’s National Deployment Force 


                               Page 12

 procedure in the NDO Operations Directive, expected to become final in late
 April 2008.

 OIG Analysis: We consider TSA’s comment responsive to the
 recommendation, which is resolved and open. This recommendation will
 remain resolved and open until TSA provides documentation that this
 decision-making process for local hiring requests has been included in the
 NDO Operations Directive.

 Recommendation 5: Provide all FSDs with standard operating procedures,
 NDO Handbooks, and all available Internet resources.

 TSA Response: TSA concurred with our recommendation, and described
 steps taken to provide FSDs, NDF TSOs, and other stakeholders with access
 to the NDF Handbook, TSO assignment selection guidelines, and NDF
 decision-making criteria. TSA plans to finalize and distribute the NDO
 Operations Directive to all FSDs and stakeholders in April 2008, and will
 emphasize the availability of NDO/NDF information at the NDF SharePoint
 site.

 OIG Analysis: We consider TSA’s comment responsive to the
 recommendation, which is resolved and open. This recommendation will
 remain resolved and open pending our receipt of documentation that the NDO
 Operations Directive has been finalized and provided to all FSDs and
 stakeholders.

 Recommendation 6: Establish a process to ensure that the NDO Handbook
 includes current policies, procedures, and guidelines for all NDO operations.

 TSA Response: TSA concurred with the recommendation, and said it will
 document in the upcoming NDO Operations Directive their process for
 reviewing the NDF Handbook to ensure it contains current and relevant
 guidance.

 OIG Analysis: We consider TSA’s comment responsive to the
 recommendation, which is resolved and open. This recommendation will
 remain resolved and open pending our receipt of documentation that the NDO
 Operations Directive has been finalized and includes the process for ensuring
 that the NDF Handbook contains current and relevant guidance for all NDO
 operations.




The Transportation Security Administration’s National Deployment Force 


                               Page 13

Appendix A
Purpose, Scope, and Methodology



                  Our objectives were to determine when, where, and why the Transportation
                  Security Administration National Deployment Force had been deployed since
                  its inception in October 2003, including expenses for related maintenance and
                  deployment. In addition, we examined TSA oversight activities, and whether
                  the overall intent of the NDF was being met. We also reviewed future plans
                  for the program.

                  We examined data and documents related to the NDF program from
                  November 2003 to December 2007. Through interviews and document
                  reviews, we evaluated the process established by TSA to request, approve, and
                  track NDF deployments and resources. We reviewed management directives,
                  standard operating procedures, program status reports, recruitment documents,
                  and TSO handbooks. We interviewed staff and contractors at the NDF
                  headquarters office, the Office of Security Operations, the Workforce
                  Utilization Office, and Office of Human Capital. We conducted telephone
                  interviews with FSDs and their staffs from 12 airports that we selected based
                  on their participation in the NDF program. We also conducted field visits to
                  three airports where NDF program TSOs had been deployed to observe
                  passenger and screening operations.

                  We conducted our review between January and September 2007 under the
                  authority of the Inspector General Act of 1978, as amended, and according to
                  the Quality Standards for Inspections issued by the President’s Council on
                  Integrity and Efficiency.




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 14

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 15

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 16

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 17

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 18

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 19

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 20

Appendix B
Management Response to Draft




                 The Transportation Security Administration’s National Deployment Force 


                                                Page 21

Appendix C
Congressional Letter




                  The Transportation Security Administration’s National Deployment Force 


                                                 Page 22

Appendix C
Congressional Letter




                  The Transportation Security Administration’s National Deployment Force 


                                                 Page 23

Appendix D
FY 2007 NDO Deployment Summary of Personnel by Pay Period and NDF Deployment Costs




                                                         Screening
                                                         Partnership                        Other
                                             Seasonal     Program      Risk     Equipment Personnel      Total
           Pay Period         Local Hiring    Support     Support    Mitigation Support   Shortfalls    Deployed
        1-Oct       14-Oct        292            8           0            0        0              104     404
        15-Oct      28-Oct        243            0           0            0        0              124     367
        29-Oct      11-Nov        242            11          0            0        0              130     383
        12-Nov      25-Nov        255            34          0            0        58             25      372
        26-Nov       9-Dec        253            36          0            0        49             28      366
        10-Dec      23-Dec        228           148          0            0        62             18      456
        24-Dec       6-Jan        177           191          0            0        53             18      439
        7-Jan       20-Jan        229           200          0           0         25             21      475
        21-Jan       3-Feb        235           214          0           0         43             16      508
        4-Feb       17-Feb        205           226          0           0         29             12      472
        18-Feb       2-Mar        191           223          0           0         18             9       441
        3-Mar       16-Mar        142           204          0           0         9              67      422
        17-Mar      30-Mar        136           200          0           0         11             8       355
        31-Mar      13-Apr        116           126          0           49        29             10      330
        14-Apr      27-Apr        116            88          0            0        3               7      214
        28-Apr      11-May        106            14          0            0        4               6      130
        12-May      25-May        110            82          0            0        20              0      212
        26-May       8-Jun        131           143          0            0        32              0      306
        9-Jun       22-Jun        177           172          0            0        26              0      375
        23-Jun       6-Jul        166           160          12           0        0               1      339
         7-Jul       20-Jul       134           157          26          11        33             1       362
        21-Jul       3-Aug        114           153          26          33        26             1       353
        4-Aug       17-Aug        116           146          21          11        32              1      327
        18-Aug      31-Aug        116           140          16          10        30              1      313
        1-Sep       14-Sep        100           116          6           20        48             1       291
        15-Sep      28-Sep        76             68          7            0        51              0      202
                 Total           4,401          3,257       113          133      686             609    9,214




                                                NDF Deployment Costs

                              Deployment Justification                              Total Cost
                              Local Hiring                                        $31,493,498
                              Seasonal Support                                    $23,306,119
                              Screening Partnership Program Transition                 $808,718
                              Risk Mitigation                                          $948,276
                              Equipment Support                                    $4,909,564
                              Other Personnel Shortfalls                           $4,354,912
                              Total Deployment Costs                              $65,821,087



                         The Transportation Security Administration’s National Deployment Force 


                                                            Page 24

Appendix E
Estimated FY 2007 Deployment Costs for Local Hiring by Pay Period




                                                         Pay,
                                                     Compensation    Total Local Hiring
                      Pay Period      Operational     and Benefits   Deployment Costs
                    1-Oct    14-Oct     $1,062,880      $1,026,906      $2,089,786
                   15-Oct    28-Oct       $884,520        $854,582      $1,739,102
                   29-Oct    11-Nov       $880,880        $851,066      $1,731,946
                   12-Nov    25-Nov       $928,200        $896,784      $1,824,984
                   26-Nov    9-Dec        $920,920        $889,750      $1,810,670
                   10-Dec    23-Dec       $828,100        $800,072      $1,628,172
                   24-Dec    6-Jan        $644,280        $622,474      $1,266,754
                    7-Jan    20-Jan       $833,560        $805,347      $1,638,907
                   21-Jan    3-Feb        $853,580        $824,690      $1,678,270
                    4-Feb    17-Feb       $746,200        $720,944      $1,467,144
                   18-Feb    2-Mar        $693,420        $669,950      $1,363,370
                    3-Mar    16-Mar       $515,060        $497,627      $1,012,687
                   17-Mar    30-Mar       $493,220        $476,526       $969,746
                   31-Mar    13-Apr       $420,420        $406,190       $826,610
                   14-Apr    27-Apr       $422,240        $407,949       $830,189
                   28-Apr    11-May       $384,020        $371,022       $755,042
                   12-May 25-May          $400,400        $386,848       $787,248
                   26-May    8-Jun        $475,020        $458,942       $933,962
                    9-Jun    22-Jun       $644,280        $622,474      $1,266,754
                   23-Jun     6-Jul       $604,240        $583,789      $1,188,029
                    7-Jul    20-Jul       $485,940        $469,493       $955,433
                    21-Jul   3-Aug        $413,140        $399,157       $812,297
                    4-Aug    17-Aug       $422,240        $407,949       $830,189
                   18-Aug    31-Aug       $420,420        $406,190       $826,610
                    1-Sep    14-Sep       $364,000        $351,680       $715,680
                   15-Sep    28-Sep       $276,640        $267,277       $543,917
                      Total Cost       $16,017,820     $15,475,678     $31,493,498




                  The Transportation Security Administration’s National Deployment Force 


                                                    Page 25

Appendix F
NDO – NetHub Message Archive: 400.3- Routine – NDF Support for Local Hiring




                  The Transportation Security Administration’s National Deployment Force 


                                                 Page 26

Appendix G
Major Contributors to this Report


                    Deborah Outten-Mills, Chief Inspector, Department of Homeland Security,
                    Office of Inspections

                    Jim O’Keefe, Senior Inspector, Department of Homeland Security, Office of
                    Inspections

                    Lawrence Anderson, Inspector, Department of Homeland Security, Office of
                    Inspections

                    McKay Smith, Inspector, Department of Homeland Security, Office of
                    Inspections




                   The Transportation Security Administration’s National Deployment Force 


                                                  Page 27

Appendix H
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Policy
                       Assistant Secretary for Public Affairs
                       Assistant Secretary for Legislative Affairs
                       Assistant Secretary, Transportation Security Administration
                       Audit Liaison, Transportation Security Administration

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as appropriate




                      The Transportation Security Administration’s National Deployment Force 


                                                     Page 28

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
